        OFFICE OF INSPECTOR GENERAL

                                   Catalyst for Improving the Environment



Briefing Report




         EPA Needs to Determine What Barriers
         Prevent Water Systems from Securing
         Known Supervisory Control and Data
         Acquisition (SCADA) Vulnerabilities

         Report No. 2005-P-00002


         January 6, 2005
Report Contributors:                     Michael Loughnane
                                         Ricardo Martinez
                                         Erin Mastrangelo
                                         Andrew McLaughlin




Abbreviations

EPA          Environmental Protection Agency
ORD          Office of Research and Development
OW           Office of Water
SCADA        Supervisory Control and Data Acquisition
                        U.S. Environmental Protection Agency                                              2005-P-00002
                                                                                                        January 6, 2005
                        Office of Inspector General


                        At a Glance
                                                                         Catalyst for Improving the Environment


Why We Did This Review             EPA Needs to Determine What Barriers Prevent
Federal Directives highlighted     Water Systems from Securing Known Supervisory
the need to secure cyberspace,     Control and Data Acquisition (SCADA) Vulnerabilities
including SCADA, from
terrorists and other malicious         What We Found
actors, and stated that securing
SCADA is a national priority.
We learned from stakeholder        SCADA networks were developed with little attention paid to security. As a
contacts that utilities may        result, many SCADA networks may be susceptible to attacks and misuses.
require assistance in order to     Furthermore, studies indicated that some water utilities may have spent little time
secure their SCADA system          and money securing their SCADA systems.
vulnerabilities.
                                   Some areas and examples of possible SCADA vulnerabilities include operator
                                   errors and corruption, unsecured electronic communications, hardware and
                                   software limitations, physical security weaknesses, natural disasters, poorly
Background                         written software, and poor security administration. Vulnerabilities may allow a
                                   person of malicious intent to cause significant harm. For example, in 2000, an
SCADA is a technology that         engineer used radio telemetry to gain unauthorized access into an Australian
allows a user to collect data      waste management system and dump raw sewage into public areas. In another
from sensors and control           example, a contractor conducting a utility water assessment stated that he was
equipment, such as pumps and       able to access the utility’s network from a remote location within minutes and
valves, from a remote              could have caused significant harm.
location. SCADA is
commonly used in many              Through preliminary research, we found several possible reasons why utilities
industries, including water        have not successfully reduced or mitigated identified vulnerabilities. It is
utility operations.                important to note that this list is not in any way expected to be exhaustive of what
                                   a full study may reveal. Specifically:
We suspended our SCADA
project because EPA agreed to      •   Current technological limitations may impede implementing security measures.
incorporate our concerns into      •   Companies may not be able to afford or justify the required investment.
an Agency SCADA project.           •   Utilities may not be able to conduct background checks on existing employees.
At EPA’s request, we briefed       •   Officials may not permit SCADA penetration testing.
the Agency on our preliminary      •   Technical engineers may have difficulty communicating security needs to
research and prepared this             management.
briefing report.
                                   To better enable water systems to secure their SCADA systems, we suggest that
                                   EPA identify impediments preventing water systems from successfully reducing
For further information,           or mitigating SCADA vulnerabilities, and take steps to reduce those impediments.
contact our Office of              If EPA identifies a problem with no apparent solution, the Agency should
Congressional and Public           communicate this problem to the Department of Homeland Security, Congress,
Liaison at (202) 566-2391.         and others as appropriate. We also suggest that EPA develop SCADA security
                                   measures to track the effectiveness of security efforts.
To view the full report,
click on the following link:

www.epa.gov/oig/reports/2005/
20050106-2005-P-00002.pdf
                              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           W ASHINGT ON, D.C. 20460


                                                                                                          OFFICE OF
                                                                                                  IN S P E C T O R G E N E R A L




                                                 January 6, 2005

MEMORANDUM

SUBJECT:                   Final Briefing Report:
                           EPA Needs to Determine What Barriers Prevent Water
                           Systems from Securing Known Supervisory Control and Data
                           Acquisition (SCADA) Vulnerabilities

FROM:                      Jeffrey K. Harris /s/
                           Director for Program Evaluation, Cross-Media Issues

TO:                        Lek Kadeli
                           Acting Deputy Assistant Administrator for Management for Research and
                           Development

                           Benjamin Grumbles
                           Assistant Administrator for Water


As part of our ongoing evaluation of the Environmental Protection Agency’s (EPA’s) activities
to enhance the security of the Nation’s water supply, we planned on conducting an evaluation of
impediments to securing water Supervisory Control and Data Acquisition (SCADA) systems.
Specifically, we planned to research what barriers, if any, impede water systems from securing
SCADA weaknesses identified in their vulnerability assessments prepared under the Public
Health Security and Bioterrorism Preparedness and Response Act of 2002 (P.L. 107-188; June
12, 2002) or by other means. Understanding impediments may better enable EPA to
appropriately consider and plan for water systems’ SCADA security needs.

Many infrastructures and industries use computer-based systems to remotely control sensitive
processes and physical functions previously controlled manually. These systems, commonly
known as SCADA1, allow a water utility to collect data from sensors and control equipment
located at remote sites. Common water system sensors measure elements such as fluid level,
temperature, pressure, water purity, water clarity, and pipeline flow rates. Common water system
equipment includes valves, pumps, and mixers for mixing chemicals into the water supply.



       1
           SCA DA systems are also som etimes referred to as Digital Contro l Systems or Process Control Systems.

                                                          1
At EPA’s request, we suspended our SCADA project because EPA has agreed to incorporate our
questions into their planned work. On September 30, 2002, EPA awarded the Water
Environment Research Foundation2 a cooperative agreement to support their water security
research efforts. The $2.1 million agreement partially funded various research projects, including
$250,000 to partially fund research in Security Measures for Computerized and Automated
Systems. On September 8, 2004, the Water Environment Research Foundation awarded EMA,
Inc.3, a $294,748 contract to conduct the SCADA research project titled “Security Measures for
Computerized and Automated Systems.” EPA participates on the project steering committee,
and requested that we elaborate on our preliminary research4 and share SCADA information and
concerns that we observed. In response, on November 16, 2004, we convened a meeting with
officials from the Office of Water and Office of Research and Development, and agreed to
compile the attached briefing. The OIG presentation slides used for the meeting are included in
Appendix A.

We planned the SCADA evaluation because, during our preliminary research, we learned that
utilities may require assistance in order to secure their SCADA systems. We based our
observations on information obtained from our interviews with water utility officials, contractors,
other infrastructure SCADA security persons, the Department of Homeland Security, Sandia
National Laboratories, and EPA representatives; attendance at stakeholder and national water
conference meetings; and a review of vulnerability assessment tools, methodologies, and related
documents. We conducted our work between May 24, 2004, and September 28, 2004, in
accordance with Government Auditing Standards issued by the Comptroller General of the
United States.

Federal Directives Highlight Need to Secure SCADA

In recent years, various official sources have addressed the importance of securing cyberspace,
including SCADA.

Presidential Directives: Presidential Decision Directive 62, issued in 1998, noted that the
Nation's critical infrastructure relies heavily on the use of computers with cyber vulnerabilities
that terrorists or criminals may use to commit attacks. Presidential Decision Directive 63, also
issued in 1998, addressed the need to protect the Nation’s critical infrastructures against criminal
and terrorist attacks, and designated EPA the lead Federal agency for helping to secure water
infrastructure. It also stated that advances in information technology and the necessity of
improved efficiency have resulted in increasingly automated and interlinked infrastructures, and
created new vulnerabilities to equipment failure, human error, weather and other natural causes,


         2
           The Water Environment Research Foundation is a nonprofit corporation with its principal place of
business located in Alexandria, VA.

         3
             EMA, Inc., is a for profit organization with its principal place of business located in St. Paul, MN.

         4
            The EP A O ffice of Insp ector General conducted preliminary research evaluating water system se curity
activities in suppo rt of the A gency’s Septemb er 20 02 S trategic P lan for H ome land S ecurity. EPA ’s Homeland
Security Strategy was subsequently updated on October 5, 2004.

                                                             2
and physical and cyber attacks. It challenged the Nation to “swiftly eliminate any significant
vulnerability to both physical and cyber attacks on our critical infrastructures, including specially
our cyber systems.” In December 2003, Homeland Security Presidential Directive 7 confirmed
EPA’s role as the lead agency for identifying, prioritizing, and coordinating the protection of
critical infrastructure and key resources for drinking water and water treatment systems.

National Strategies: The White House’s July 2002 National Strategy for Homeland Security
noted that cyber attacks frequently occur on a local scale, and such attacks can occur on a more
catastrophic national scale. The National Strategy further stated that our Nation’s potential
enemies have the intent, the tools of destruction are broadly available, our systems have well
known vulnerabilities, and that a single act could inflict damage in multiple locations without the
attacker ever physically entering the United States. The February 2003 National Strategy to
Secure Cyberspace5 included five priorities. The second priority, titled “A National Cyberspace
Security Threat and Vulnerability Reduction Program,” addressed SCADA security issues and
stated that securing SCADA is a national priority.

The Bioterrorism Act: The Public Health Security and Bioterrorism Preparedness and Response
Act of 2002 (P.L. 107-188) requires utilities serving a population greater than 3,300 persons to
conduct vulnerability assessments and to prepare emergency response plans. The Act required
vulnerability assessments to include a review of automated systems. EPA awarded $51 million
in grants to help large utilities prepare vulnerability assessments required under the Bioterrorism
Act. EPA stores copies of these assessments in a secure area. Within six months of completing
their assessments, water systems must certify to EPA that they completed their emergency
response plans. However, the Act did not require utilities to submit copies of their plans to EPA.

SCADA Vulnerabilities Are Many

SCADA networks developed with little attention paid to security, making the security of these
systems often weak. Studies have found that, while technological advancements introduced
vulnerabilities, many water utilities have spent little time securing their SCADA networks. As a
result, many SCADA networks may be susceptible to attacks and misuse.

Remote monitoring and supervisory control of processes begun to develop in the early 1960s,
and adopted many technological advancements. The advent of minicomputers made it possible
to automate a vast number of once manually-operated switches. Advancements in radio
technology reduced the communication costs associated with installing and maintaining buried
cable in remote areas. SCADA systems continued to adopt new communication methods
including satellite and cellular. As the price of computers and communications dropped, it
became economically feasible to distribute operations and to expand SCADA networks to
include even smaller facilities.

Advances in information technology and the necessity of improved efficiency have resulted in
increasingly automated and interlinked infrastructures, and created new vulnerabilities due to

        5
         Cyberspace is composed of computer systems and their interconnections (source: The W hite House, “The
National Strategy to Secure Cyberspace,” 20 03, executive summary, p. vii).

                                                       3
equipment failure, human error, weather and other natural causes, and physical and cyber attacks.
Some areas and examples of possible SCADA vulnerabilities include:

•   Human - People can be tricked or corrupted, and may commit errors.
•   Communications - Message can be fabricated, intercepted, changed, deleted, or blocked.
•   Hardware - Security features are not easily adapted to small self-contained units with limited
    power supplies.
•   Physical - Intruders can break into a facility to steal or damage SCADA equipment.
•   Natural - Tornados, floods, earthquakes, and other natural disasters can damage equipment
    and connections.
•   Software - Programs can be poorly written.

A study published May 1998 included a survey6 that found that many water utilities were doing
little to secure their SCADA network vulnerabilities. For example, many respondents reported
that they had remote access, which can allow an unauthorized person to access the system
without being physically present. More than 60 percent of the respondents believed that their
systems were not safe from unauthorized access and use. Twenty percent of the respondents
even reported known attempts, successful unauthorized access, or use of their system. Yet 22 of
43 respondents reported that they do not spend any time ensuring their network is safe and 18 of
43 respondents reported that they spend less than 10 percent ensuring network safety.

SCADA system computers and their connections are susceptible to different types of information
system attacks and misuse such as system penetration and unauthorized access to information.
The Computer Security Institute and Federal Bureau of Investigation conduct an annual
Computer Crime and Security Survey7. The 2004 survey reported on 10 types of attacks or
misuse, and reported that virus and denial of service had the greatest negative economic impact.
The same study also found that 15 percent of the respondents reported abuse of wireless
networks, which can be a SCADA component. On average, respondents from all sectors did not
believe that their organization invested enough in security awareness. Utilities as a group
reported a lower average computer security expenditure/investment per employee than many
other sectors such as transportation, telecommunications, and financial.

Sandia National Laboratories’ Common Vulnerabilities in Critical Infrastructure Control
Systems8 described some of the common problems it has identified in the following five
categories:




         6
           The survey was part of a thesis presented to the Faculty of the School of Engineering and Applied Science
at the U niversity of Virginia: Eze ll, Captain Barry C., “Risks of Cyber Attack to Supervisory Contro l and D ata
Acquisition for Water Supply (May 1998).”

         7
          Comp uter Crime Institute and Federal Bureau of Investigations, “Ninth Annual Computer Crime and
Security Survey” (2004).

         8
        Stamp, Jason et al., “Commo n Vulnerabilities in Critical Infrastructure Control Systems (2 nd edition, 22
May 2003; revised 11 N ovembe r 2003),” Sandia N ational Laborato ries.

                                                          4
1.   System Data -Important data attributes for security include availability, authenticity,
     integrity, and confidentiality. Data should be categorized according to its sensitivity, and
     ownership and responsibility must be assigned. However, SCADA data is often not
     classified at all, making it difficult to identify where security precautions are appropriate.
2.   Security Administration -Vulnerabilities emerge because many systems lack a properly
     structured security policy, equipment and system implementation guides, configuration
     management, training, and enforcement and compliance auditing.
3.   Architecture -Many common practices negatively affect SCADA security. For example,
     while it is convenient to use SCADA capabilities for other purposes such as fire and security
     systems, these practices create single points of failure. Also, the connection of SCADA
     networks to other automation systems and business networks introduces multiple entry
     points for potential adversaries.
4.   Network (including communication links) - Legacy systems’ hardware and software have
     very limited security capabilities, and the vulnerabilities of contemporary systems (based on
     modern information technology) are publicized. Wireless and shared links are susceptible to
     eavesdropping and data manipulation.
5.   Platforms - Many platform vulnerabilities exist, including default configurations retained,
     poor password practices, shared accounts, inadequate protection for hardware, and
     nonexistent security monitoring controls. In most cases, important security patches are not
     installed, often due to concern about negatively impacting system operation; in some cases
     technicians are contractually forbidden from updating systems by their vendor agreements.

The following two incidents help to illustrate some of the risks associated with SCADA
vulnerabilities.

•    In 2000, an engineer used radio telemetry to gain unauthorized access into an Australian
     waste management system and dump raw sewage into public waterways and the grounds of
     a hotel. The perpetrator had worked for the contractor that supplied the remote control and
     telemetry equipment to the waste management system. This incident highlights many
     SCADA vulnerabilities. It illustrates the human factor of how people may be corrupted, and
     that the risk extends beyond current employees to outsiders who gain working knowledge
     system operations. Additionally, it illustrates that an outsider can exploit communications
     vulnerabilities to hack into a system.

•    During the course of conducting a vulnerability assessment, a contractor stated that
     personnel from his company penetrated the information system of a utility within minutes.
     Contractor personnel drove to a remote substation and noticed a wireless network antenna.
     Without leaving their vehicle, they plugged in their wireless radios and connected to the
     network within 5 minutes. Within 20 minutes they had mapped the network, including
     SCADA equipment, and accessed the business network and data. This illustrates what a
     cyber security advisor from Sandia National Laboratories specializing in SCADA stated,
     that utilities are moving to wireless communication without understanding the added risks.




                                                 5
EPA Needs to Determine What Barriers Prevent Water Systems from
Securing Known Vulnerabilities

EPA agreed to incorporate our SCADA research question into their planned work, and requested
that we elaborate on the SCADA security issues we would like covered. Our research question
was “What barriers, if any, prevent water systems from securing known SCADA
vulnerabilities?” More specifically, our research goals were as follows.

The first goal was to identify specific SCADA vulnerabilities uncovered by water system
vulnerability assessments and by other means. Vulnerability assessments stored at EPA may
identify a wide array of vulnerabilities, as may other or subsequent assessments maintained by
the utilities. Other possible sources of vulnerabilities information include water and SCADA
experts from other infrastructures, National Laboratories, the Department of Homeland Security,
academia, and contractors. Identified vulnerabilities can be listed, grouped, and analyzed to
determine which are the most critical and most common vulnerabilities identified at water
systems.

The second goal was to determine if vulnerability assessments are being successfully addressed.
Completing vulnerability assessments and emergency response plans may not by themselves
make water systems safer. Water systems must respond with proper security measures.
Conversations with SCADA water system personnel and contractors may reveal whether water
systems have implemented adequate security measures. For example, a contractor stated that
utility operators may continue using default passwords due to a false sense of security. Utility
representatives, system integrators, and manufacturers of hardware, software, and firmware may
reveal whether utilities include security specifications in their procurement requirements. It is
also important to determine what steps water systems take to validate the degree to which their
remedies mitigated the vulnerability.

The third goal was to determine the reasons behind those instances where utilities cannot
successfully reduce or mitigate identified vulnerabilities. Securing SCADA has inherent
obstacles, and water systems may be unable or unwilling to take necessary security measures.
The February 2003 National Strategy to Secure Cyberspace stated that securing SCADA is
complicated because companies cannot afford or justify the required investment in systems and
research and development; current technological limitations impede implementing security
measures. This and other obstacles or barriers may impede water systems from successfully
securing their water systems, leaving water systems at risk. For example, some utilities stated
that they cannot conduct background checks on existing employees. Another utility
representative stated that a city manager did not permit SCADA penetration testing. A Sandia
National Laboratories representative and a contractor both stated that technical SCADA
engineers have difficulty communicating security needs to management in a way that will get the
projects funded. Another factor may be that water systems with significant investment in
SCADA equipment and training may hesitate to undertake protection methods that require major
replacement. What we found to date is based on preliminary research and is not in any way
expected to be exhaustive of what a full study may reveal. EPA may find additional SCADA
security constraints and may wish to pay particular attention to those that affect the most critical
or common vulnerabilities.

                                                 6
The fourth goal was to determine what actions EPA can take to help remove impediments to
water SCADA security. Possible EPA responses might include technical papers, manuals, a
toolbox, new research, investment in new technologies, standards, and alerting other
stakeholders. By identifying the most significant barriers impeding water systems from securing
their SCADA systems, EPA will be better equipped to plan for and address key problems. EPA
will be in a better position to address those problems that delay or preclude water SCADA
security. This may allow EPA and others to focus limited resources into the areas that will have
the greatest water SCADA security impact. Where EPA identifies a problem with no viable,
likely, or apparent solution, the Agency should communicate this problem to the Department of
Homeland Security, Congress, water industry groups, or others as appropriate.

We Encourage EPA to Develop SCADA Security Measures

We encourage EPA to look for ways to measure the extent to which water system efforts and
EPA contributions increase SCADA security. This would entail developing program measures
and ways to systematically collect information. EPA may be able to learn from the practices of
others. For example, the Computer Security Institute joined forces with the San Francisco
Federal Bureau of Investigation’s Computer Intrusion Squad and developed an annual computer
crime and security survey. The survey asks participants to respond anonymously to a series of
security-related questions, and establishes trends based on the responses. Possible sources of
information include water systems, SCADA system integrators, security component
manufacturers, intrusion assessment contractors, etc. Proper measures will allow EPA to better
ensure that resources are allocated appropriately and efficiently, and that the program is
accomplishing its goals. It will also help EPA to comply with the Government Performance and
Results Act of 1993 and the President’s Management Agenda, which require EPA to measure the
effectiveness of its programs.

Suggestions

To better enable water systems to secure their SCADA systems, we suggest that

1.   EPA identify impediments preventing water systems from successfully reducing or
     mitigating SCADA vulnerabilities, and take steps to reduce those impediments.

2.   EPA develop SCADA security measures to track the effectiveness of security efforts.

Agency Response

The EPA Office of Research and Development chose not to provide a formal written response.
Similarly the EPA Office of Water chose not to provide written comments, but noted that their
current activities are addressing the OIG suggestions. We are closing this report upon issuance
since it does not contain recommendations.




                                               7
                                                                      Appendix A
           Environmental Protection Agency
             Office of Inspector General

                                             Catalyst for Environmental Improvement




    OIG/ORD/OW SCADA Meeting

     Ricardo Martinez, Office of Program Evaluation
    Michael Loughnane, Computer Crimes Directorate
                     November 16, 2004


1
    Environmental Protection Agency
      Office of Inspector General

                                      Catalyst for Environmental Improvement




                      Agenda
          1. What is SCADA
          2. SCADA Vulnerabilities
          3. Federal Directives
          4. Current Status


2
    Environmental Protection Agency
      Office of Inspector General

                                      Catalyst for Environmental Improvement




                      Agenda
          1. What is SCADA
          2. SCADA Vulnerabilities
          3. Federal Directives
          4. Current Status


3
    Environmental Protection Agency
      Office of Inspector General




      What is SCADA?                          Allows a
                                            water utility to
          Computer-based
                                          • Collect data
        system that remotely
                                            from sensors
         controls processes
             previously                   • Control
        controlled manually.                equipment at
                                            remote sites
4                                     Supervisory Control And Data Acquisition System
    Environmental Protection Agency
      Office of Inspector General



                                                        SCADA allows an Operator
                                                        using a central computer to
                                                        supervise (control and monitor)
                                                        multiple networked computers at
                                                        remote locations.
     Multiple
     Remote
    Computers

                                                        Each remote computer can control
                                                        mechanical processes (pumps,
                                                        valves, etc.) and collect data from
                                                        sensors at its remote location.


                            Pumps, Valves,    Sensors
                            Actuators, etc.
                                                        Thus the Phrase: Supervisory
                                                        Control and Data Acquisition, or
                                                        SCADA.

5                                                                              SCADA
                                                    Environmental Protection Agency
                                                      Office of Inspector General


       Operator       Human /
                                      Master
      (Supervisor)   Machine
                                   Terminal Unit
                     Interface
                                      (MTU)           The central computer is called the
                      (HMI)
                      Software                        Master Terminal Unit, or MTU.
                                                      The Operator interfaces with the
     Multiple                                         MTU using a software called
    PLCs/RTUs                                         Human Machine Interface, or HMI.




                     Pumps, Valves,       Sensors
                     Actuators, etc.




6                                                                                 SCADA
                                                           Environmental Protection Agency
                                                             Office of Inspector General


       Operator              Human /
                                             Master
      (Supervisor)          Machine
                                          Terminal Unit
                            Interface
                                             (MTU)
                             (HMI)
                             Software

     Multiple
    PLCs/RTUs

                     PLC/                     PLC/           The remote computer is called
                     RTU                      RTU            Program Logic Controller (PLC) or
                                                             Remote Terminal Unit (RTU)*




                            Pumps, Valves,       Sensors
                            Actuators, etc.


                                                             *There are differences between a PLC and RTU.


7                                                                                         SCADA
                                                           Environmental Protection Agency
                                                             Office of Inspector General


       Operator              Human /
                                             Master
      (Supervisor)          Machine
                                          Terminal Unit
                            Interface
                                             (MTU)
                             (HMI)
                             Software

     Multiple
    PLCs/RTUs

                     PLC/                     PLC/
                     RTU                      RTU



                                                             The RTU activates a relay (or
               Turns
                                                             switch) that turns mechanical
               on/off             Relay          Sensors
             Mechanical                                      equipment “on” and “off.” The
             Equipment                                       RTU also collects data from
                                                             sensors.

                            Pumps, Valves,
                            Actuators, etc.
8                                                                                        SCADA
                                                          Environmental Protection Agency
                                                            Office of Inspector General


       Operator              Human /
                                             Master         In the early stages utilities ran wires,
      (Supervisor)          Machine
                                          Terminal Unit     also known as hardwire or land lines,
                            Interface
                                             (MTU)          from the central computer (MTU) to
                             (HMI)
                             Software                       the remote computers (RTUs).

     Multiple
    PLCs/RTUs                                                  Hardwire


                                              PLC/       Since remote locations can be located
                     PLC/                                hundreds of miles from the central
                     RTU                      RTU
                                                         location, utilities begun to use public
                                                         phone lines and modems, leased
                                                         telephone company lines, and radio &
                                                         microwave communication. More
               Turns                                     recently, they have also begun to use
               on/off             Relay          Sensors satellite links, Internet, & newly
             Mechanical
             Equipment
                                                         developed wireless technologies.


                            Pumps, Valves,
                            Actuators, etc.
9                                                                                       SCADA
                                                           Environmental Protection Agency
                                                             Office of Inspector General


        Operator              Human /
                                              Master
       (Supervisor)          Machine                           Business
                                           Terminal Unit
                             Interface                         Systems
                                              (MTU)
                              (HMI)
                              Software

      Multiple
     PLCs/RTUs
                                                          Since the SCADA systems’ Sensors
                                               PLC/       provided valuable information,
                      PLC/
                                               RTU        many utilities established
                      RTU
                                                          “connections” between their
                                                          SCADA systems and their business
                                                          system. This allowed Utility
                                                          management and other staff access
                Turns
                                                          to valuable statistics, such as water
                on/off             Relay          Sensors usage.
              Mechanical
              Equipment


                             Pumps, Valves,
                             Actuators, etc.
10                                                                                       SCADA
                                                            Environmental Protection Agency
                                                              Office of Inspector General


        Operator              Human /
                                              Master
       (Supervisor)          Machine                            Business               Internet
                                           Terminal Unit
                             Interface                          Systems
                                              (MTU)
                              (HMI)
                              Software

      Multiple
     PLCs/RTUs
                                                              When utilities later connected their
                                               PLC/           systems to the Internet, they were
                      PLC/
                                               RTU            able to provide stakeholders with
                      RTU
                                                              water statistics on the Utility web
                                                              pages.


                Turns
                on/off             Relay          Sensors
              Mechanical
              Equipment


                             Pumps, Valves,
                             Actuators, etc.
11                                                                                        SCADA
                                                                  Environmental Protection Agency
                                                                    Office of Inspector General


       Operator          Human /
                                           Master
     (Supervisor)       Machine
                                        Terminal Unit
                                                                         Business                   Internet
                        Interface                                        Systems
                         (HMI)             (MTU)                                       Firewall
                       Software                                             Corporate Offices
         Main SCADA Control Center




     Remote
                    PLC/
     Location       RTU                 Physical Security
                                                                                   To other Remote
                                        System
                                                                                 Locations/substations

      Sensors                             Turns
                            Relay        on/Off
                                        Mechanical
                                        Equipment

                Pumps, Valves, Actuators, etc.                Representative SCADA network
12                                                          Supervisory Control And Data Acquisition System
                                                                  Environmental Protection Agency
                                                                    Office of Inspector General


       Operator          Human /
                                           Master
     (Supervisor)       Machine
                                        Terminal Unit
                                                                         Business                   Internet
                        Interface                                        Systems
                         (HMI)             (MTU)                                       Firewall
                       Software                                            Corporate Offices
 Main SCADA Control Center


                                                            SCADA systems have many areas
                                                              where security is a concern.


     Remote
                    PLC/
     Location       RTU                 Physical Security
                                                                                   To other Remote
                                        System
                                                                                 Locations/substations

      Sensors                             Turns
                            Relay        on/Off
                                        Mechanical
                                        Equipment

                Pumps, Valves, Actuators, etc.                Representative SCADA network
13                                                          Supervisory Control And Data Acquisition System
     Environmental Protection Agency
       Office of Inspector General

                                       Catalyst for Environmental Improvement




                       Agenda
           1. What is SCADA
           2. SCADA Vulnerabilities
           3. Federal Directives
           4. Current Status


14
     Environmental Protection Agency
       Office of Inspector General



                                       Vulnerabilities
     • Physical
          Example-Intruders can break into your facilities to steal or damage SCADA
          equipment.
     • Natural
          Example-Tornados, floods, earthquakes, and other natural disasters can
          damage equipment or connections.
     • Hardware
          Example-Security features are not easily adapted to small self-contained
          units with limited power supplies.
     • Software
          Example-Programs can be poorly written.
     • Communications
          Example-Message can be fabricated, intercepted, changed, or deleted/blocked.

     • Human
         Example-People can be tricked or corrupted, and may commit errors.
15
     Environmental Protection Agency
       Office of Inspector General




                                       Described common
                                       problems identified in
                                       5 categories:

                                       1. Data
                                       2. Security Administration
                                       3. Architecture
                                       4. Network
                                       5. Platforms



16
     Environmental Protection Agency
       Office of Inspector General




                     Pre-9/11 Baseline Condition
             per a study published 1998, approximately:
     • 60% reported their SCADA system could be remotely
       accessed and controlled.
     • 60% reported their systems not safe from unauthorized
       access or use.
     • 20% reported known attempts.
     • 50% reported not spending any time ensuring their
       network is safe.
     • 40% reported they spend less than 10% of their time
       ensuring network safety.
17
     Environmental Protection Agency
       Office of Inspector General



          Current Survey               On average, respondents from all
                                       sectors did not believe that their
                                       organization invested enough in
                                             security awareness.


                                         Utilities as a group reported a
                                       lower average computer security
                                          expenditure/investment per
                                           employee than many other
                                         sectors such as transportation,
                                            telecommunications, and
                                                    financial.


18
     Environmental Protection Agency
       Office of Inspector General



          Current Survey               The survey also found:

                                       • Of 10 types of attacks
                                         or misuse, virus and
                                         denial of service had the
                                         greatest negative
                                         economic impact

                                       • 15% reported abuse of
                                         wireless networks


19
     Environmental Protection Agency
       Office of Inspector General




         Two SCADA Risk Illustrations

     • Australian waste management system
            Engineer used unauthorized access to dump raw sewage.


     • Utility vulnerability assessment
            Contractor penetrated a utility information system from a
            remote substation within minutes.


20
     Environmental Protection Agency
       Office of Inspector General

                                       Catalyst for Environmental Improvement




                       Agenda
           1. What is SCADA
           2. SCADA Vulnerabilities
           3. Federal Directives
           4. Current Status


21
     Environmental Protection Agency
       Office of Inspector General




                     Federal Directives
       • PDD 62, issued May 1998

       • PDD 63, issued May 1998

       • The National Strategy for
         Homeland Security, July 2002

       • The National Strategy to Secure
         Cyberspace, Feb 2003
22
     Environmental Protection Agency
       Office of Inspector General




     PDD 62, issued May 1998, noted that,
         the Nation's critical infrastructure
         relies heavily on the use of computers
         with cyber vulnerabilities
         that terrorists may exploit
         to commit attacks.


23
     Environmental Protection Agency
       Office of Inspector General




      PDD 63, issued May 1998, noted that,
     Information technology advances have:
           • Improved efficiency
           • Increasingly automated and interlinked
             infrastructures
           • Created new vulnerabilities



     Equipment Failure            Human Error   Natural causes    Physical or
                                                                 Cyber attacks
24
     Environmental Protection Agency
       Office of Inspector General




                      PDD 63, issued May 1998,
     Named EPA as the water infrastructure lead tasked
     with forming a private-public partnership to:
        • swiftly eliminate significant vulnerabilities,
          “including specially our cyber systems.”    (See Section II)




        • encourage utilities to provide maximum
          feasible infrastructure security & information
          so the government can assist them.

25
     Environmental Protection Agency
       Office of Inspector General


 The National Strategy for Homeland Security stated, (p.34)
                                       • Cyber attacks are happening frequently
                                       on a local scale

                                       • It can occur on a broader or even
                                       national scale (catastrophic)

                                       • Our potential enemies have the intent

                                       • the tools of destruction are broadly
                                       available

                                       • Our systems have many well-known
                                       vulnerabilities

                                       • a single act can inflict damage in
                                       multiple locations simultaneously without
                                       the attacker ever having physically
                                       entered the United States
26
     Environmental Protection Agency
       Office of Inspector General




                                       EPA’s role is crucial in making sure that
                                       the water sector’s security challenges are
                                       not overlooked.



         The National Strategy for Homeland security stated,
         • DHS depends on federal agencies to address a sector’s
           unique infrastructure challenges. (p31d)
         • Government must help enable the private sector’s ability to
           carry out its protection responsibilities. (p33b)
27
     Environmental Protection Agency
       Office of Inspector General




                                          The National
                                       Strategy to Secure
                                          Cyberspace

                                           Feb. 2003



28
     Environmental Protection Agency
       Office of Inspector General




       Under Priority #2 - A National Cyberspace security Threat and
       Vulnerability Reduction Program:
         Page 32
         Securing SCADA is a national Priority but complicated
           because:
         • It requires investment in systems and R&D that companies
           cannot afford or justify on their own.
         • Current technological limitations could impede the
           implementation of security measures.
              e.g.-Security features may not be easily adapted, and could also impact the
              systems’ performance/synchronization.


29
      Environmental Protection Agency
        Office of Inspector General



     Page ix
                  A government role is warranted:

     • When high transaction costs or legal barriers lead
       to significant coordination problems.

     • When there is an absence of private sector forces.

     • When incentive problems lead to under
       provisioning of critical shared resources;

     • In raising awareness.
30
     Environmental Protection Agency
       Office of Inspector General

                                       Catalyst for Environmental Improvement




                       Agenda
           1. What is SCADA?
           2. SCADA Vulnerabilities
           3. Federal Directives
           4. Current Status


31
     Environmental Protection Agency
       Office of Inspector General




                                       Current Status
     • Utility VA’s completed/due (copies in EPA vault.)
     • Large & mid-sized utility ERP’s complete/due,
       small size due at year end.
     • DHS begun SCADA focus in May 2004.
       (Seeking ideas on how to best approach SCADA)
     • EPA beginning SCADA work through
       WERF et al.
     • OIG handing-off SCADA project to EPA
32
     Environmental Protection Agency
       Office of Inspector General




                                       Current Status
     • Utility VA’s completed/due (copies in EPA vault.)
     • Large & mid-sized utility ERP’s complete/due,
       small size due at year end.
     • DHS begun SCADA focus in May 2004.
       (Seeking ideas on how to best approach SCADA)
     • EPA beginning SCADA work through
       WERF et al.
     • OIG handing-off SCADA project to EPA
33
     Environmental Protection Agency
       Office of Inspector General



     Water Utility VAs and ERPs are either completed or almost due.
                                                   Schedule under the Bioterrorism Act
                                                                     Certify
                                        Certify and submit
                                         Vulnerability             Emergency
           Systems serving
                                           Assessment            Response Plan
            population of:
                                                by:             within 6 months of
                                                               VA but no later than:

      100,000 or greater               March 31, 2003         September 30, 2003

      50,000 - 99,999                  December 31, 2003 June 30, 2004

      3,301 – 49,999                   June 30, 2004          December 31, 2004

34
     Environmental Protection Agency
       Office of Inspector General




                                       Current Status
     • Utility VA’s completed/due (copies in EPA vault.)

     • Large & mid-sized utility ERP’s complete/due,
       small size due at year end.

     • DHS begun SCADA focus in May 2004.
       (Seeking ideas on how to best approach SCADA)

     • EPA beginning SCADA work through
       WERF et al.

     • OIG handing-off SCADA project to EPA
35
     Environmental Protection Agency
       Office of Inspector General




                                       DHS, in coordination with the
                                       Department of Energy and other
                                       concerned agencies, will work in
                                       partnership with private industry to
                                       ensure that there is broad
                                       awareness among industry vendors
                                       and users, both regulated and
                                       unregulated, of the vulnerabilities
                                       in DCS/SCADA systems, and the
                                       consequences of exploitation of
                                       those vulnerabilities.


On May 2004, DHS formed a team to address cyber security
   concerns, including individuals focusing on SCADA.
36
     Environmental Protection Agency
       Office of Inspector General




     “FOIA, antitrust & liability          “Protected Critical
      laws represent barriers to       Infrastructure Information
           public-private                 (PCII) protection.”(p.2)
          cooperation.”(p.2)
37
     Environmental Protection Agency
       Office of Inspector General




                                       Current Status
     • Utility VA’s completed/due (copies in EPA vault.)

     • Large & mid-sized utility ERP’s complete/due,
       small size due at year end.

     • DHS begun SCADA focus in May 2004.
       (Seeking ideas on how to best approach SCADA)

     • EPA beginning SCADA work through
       WERF et al.

38
     • OIG handing-off SCADA project to EPA
     Environmental Protection Agency
       Office of Inspector General


 EPA awarded $2.1 million to WERF, including $250k for SCADA research.
 WERF awarded almost $300,000 to EMA, Inc. to conduct the SCADA research.




39
     Environmental Protection Agency
       Office of Inspector General




                                       Current Status
     • Utility VA’s completed/due (copies in EPA vault.)

     • Large & mid-sized utility ERP’s complete/due,
       small size due at year end.

     • DHS begun SCADA focus in May 2004.
       (Seeking ideas on how to best approach SCADA)

     • EPA beginning SCADA work through
       WERF et al.

     • OIG handing-off SCADA project to EPA
40
     Environmental Protection Agency
       Office of Inspector General



        What barriers, if any, prevent water systems from
      successfully securing known SCADA vulnerabilities?
      • Determine specific SCADA vulnerabilities identified
        by water systems and others.
      • Determine if identified vulnerabilities are being
        adequately addressed.

      • Determine the reasons behind impediments where
        water systems cannot successfully reduce or mitigate
        identified vulnerabilities.

       • Determine actions EPA can take to remove
41
         impediments.                                       Planning: Overview
     Environmental Protection Agency
       Office of Inspector General




          What barriers, if any, prevent water systems from
        successfully securing known SCADA vulnerabilities?
           Goal 1
          Identify
       Vulnerabilities
        Critical #1

          Critical #2

        Common #1

        Common #2

42                                                      Planning: Overview
     Environmental Protection Agency
       Office of Inspector General




                                            Common
                                          Vulnerabilities
                          Focus efforts
                                           Critical areas


                                          Water Sector
                                            specific
                                       General in nature
43
     Environmental Protection Agency
       Office of Inspector General


          What barriers, if any, prevent water systems from
        successfully securing known SCADA vulnerabilities?
           Goal 1                       Goal 2        Goal 3         Goal 4
          Identify                     Adequately    Why not?    EPA Response
       Vulnerabilities                 Addressed?        .              .
        Critical #1                       No        Reason 1    Response 1
                                                    Reason 2    Response 2
          Critical #2                     Yes          N/A            N/A

        Common #1                         Yes          N/A            N/A

        Common #2                         No        Reason 1    Response 3
                                                    Reason 2    Response 4
                                                    Reason 3    Alert DHS/other
44                                                                          Planning: Overview
     Environmental Protection Agency
       Office of Inspector General



                      Identify
                                               Goal 1
         Start                                 Determine Specific SCADA
                   vulnerabilities.
                                               vulnerabilities identified by water
                                               systems and others.
                         Is
                    vulnerability
                                                Goal 2
                                   Yes         Determine if identified
                  being adequately       End
                     addressed?                vulnerabilities are being
                                               adequately addressed.
                             No
                                               Goal 3
                                               Determine the impediments behind
                   Determine why.
                     (What is the              instances where utilities cannot
                    impediment?)               successfully reduce or mitigate
                                               identified vulnerabilities.
                                               Goal 4
                    EPA response               Determine actions EPA can take to
                                               remove the impediments.
45
     Environmental Protection Agency
       Office of Inspector General



                      Identify
         Start
                   vulnerabilities.
                                             Other Matters
                         Is                     Measure
                    vulnerability            Effect / Impact
                                       Yes
                  being adequately           of water system   End
                     addressed?                 Efforts &
                                              EPA response
                             No

                   Determine why.      We encourage EPA to look for ways
                     (What is the       to measure the extent to which:
                    impediment?)
                                          (1) water system efforts and
                                          (2) EPA response
                    EPA response          increased security.
46
     Environmental Protection Agency
       Office of Inspector General

                                       Catalyst for Environmental Improvement




     For questions contact:
     Ricardo Martinez                    (212) 637-3045
     Andrew McLaughlin (202) 566-2591




47
